 OFFICE OF INSPECTOR GENERAL

                  Audit Report

 The Railroad Retirement Board’s Progress in Implementing
Federal Information Security Management Act Requirements



                   Report No. 10-08
                    May 19, 2010




    RAILROAD RETIREMENT BOARD
                                         TABLE OF CONTENTS

Introduction 
  Background ................................................................................................................. 1 
  Objective...................................................................................................................... 2 
  Scope .......................................................................................................................... 2 
  Methodology ................................................................................................................ 2

Results of Evaluation 
  Certification and Accreditation ..................................................................................... 3 
  Access Controls ........................................................................................................... 4 
  Privacy ......................................................................................................................... 5 
  Risk Assessment ......................................................................................................... 6 
  Policies and Procedures .............................................................................................. 7 
  System Security Plans ................................................................................................. 7 
  Training........................................................................................................................ 8 
  Testing and Evaluation ................................................................................................ 8 
  Remedial Action Process ............................................................................................. 9 
  Incident Handling and Reporting ............................................................................... 10 
  Continuity of Operations ............................................................................................ 10 
  Inventory of Systems ................................................................................................. 11

Appendix 
  Appendix I Important Outstanding Audit Recommendations .................................... 12 




                                                                 i
                                           INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) evaluation of
the Railroad Retirement Board’s (RRB) progress in implementing Federal Information
Security Management Act (FISMA) requirements. 1

Background

The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act and the Railroad Unemployment Insurance Act. These programs provide income
protection during old age and in the event of disability, death, temporary unemployment
or sickness. The RRB paid over $10.8 billion in benefits during fiscal year (FY) 2009.
The RRB is headquartered in Chicago, Illinois and has 53 Field Offices across the
nation.

FISMA requires each agency to develop, document, and implement an agencywide
information security program for the information and information systems that support
the operations and assets of the agency. Such a program includes:

      ¾   periodic assessments of risk;
      ¾   risk-based policies and procedures that ensure information security is addressed;
      ¾   developing and implementing system security plans;
      ¾   security awareness training for personnel, contractors, and other users of the
          information system;
      ¾   periodic testing and evaluation of the effectiveness of the information security
          policies, procedures, and practices;
      ¾   a process for planning, implementing, evaluating, and documenting remedial
          action to address any deficiencies;
      ¾   procedures for detecting, reporting, and responding to security incidents;
      ¾   plans and procedures to ensure the continuity of operations; and
      ¾   developing and maintaining an information systems inventory.

FISMA also requires annual agency program reviews, Inspector General security
evaluations, an agency report to the Office of Management and Budget (OMB), and an
OMB report to Congress. Additionally, OMB requires an annual report of agency
activities performed in accordance with the Privacy Act, and an Inspector General
assessment of the agency’s privacy program and privacy impact assessment process. 2

Past audits and evaluations by the OIG and contractors hired by the OIG have
disclosed weaknesses throughout the RRB’s information security program, including
significant deficiencies in access controls over both the mainframe and LAN
environments; training provided to staff with significant security responsibilities; delays
in meeting FISMA requirements for both risk assessments, and periodic testing and
1
    FISMA was enacted as Title III, E-Government Act of 2002, P.L. 107-347.
2
    The Privacy Act of 1974, 5 U.S.C. § 552a.


                                                    1
evaluation; and the internal control over the certification and accreditation process due
to an ineffective review process for contractor deliverables.

The RRB has addressed the significant deficiencies for training, risk assessments and
periodic testing and evaluation, but the significant deficiencies for access controls and
the internal control over the certification and accreditation process continue to exist.

The Bureau of Information Services (BIS), under the direction of the Chief Information
Officer (CIO), is responsible for the RRB’s information security and privacy programs.
FISMA requires agencies to report any significant deficiency as a material weakness
under the Federal Managers’ Financial Integrity Act. 3

Objective

The objective of this evaluation was to determine the progress made by the RRB in
implementing the information security program required by FISMA.

Scope

The scope of this evaluation was the RRB’s information security program from FY 2000
to FY 2009, and the status of agency actions to correct or mitigate previously reported
information security weaknesses as of March 23, 2010. Such status is determined after
an OIG review of agency corrective actions, and an OIG decision to close the audit
recommendation as implemented.

Methodology

To accomplish our objective we reviewed our prior reports to identify previously reported
weaknesses and the corresponding OIG audit follow-up records, including
documentation previously submitted through the audit follow-up process. Additionally,
we conducted interviews of agency staff, and obtained and reviewed documentation to
support significant accomplishments made by the RRB, as necessary. Our work did not
include any assessments against new or previously established criteria.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Fieldwork was conducted at RRB headquarters in Chicago, Illinois,
from January 2010 through April 2010.




3
    The Federal Managers’ Financial Integrity Act of 1982, 31 U.S.C. § 3512.


                                                      2
                                   RESULTS OF EVALUATION

Over the past ten years, the RRB has made significant progress in implementing an
information security program that meets the requirements of FISMA. Since FY 2000,
they have made steady progress in correcting previously reported deficiencies in their
information security and privacy programs. Additionally, the RRB is currently
addressing important outstanding audit recommendations that will continue to
strengthen the overall security and privacy programs.

Many of the FISMA required elements did not exist or were inconsistently enforced
when the OIG first began evaluating the RRB’s information security program. Since
FY 2000, the OIG has made over 325 audit recommendations for improvement. As of
March 23, 2010, the RRB has implemented 234 of these audit recommendations,
resulting in every FISMA required element to be addressed. Appendix I lists important
outstanding recommendations that require additional action by agency personnel to
ensure all FISMA requirements are in place and effectively operating on a consistent
basis.


          Audit Recommendations by Fiscal Year
    350
    300
    250                                                                            The RRB has made
    200                                                                            steady progress in
    150                                                                            implementing audit
    100                                                                            recommendations.
     50
      0
          2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010

          Number Implemented          Number Pending Implementation


The details of our findings and conclusions follow. A draft of this report was sent to the
RRB and no comments were provided.

Certification and Accreditation

In FY 2009, the RRB completed actions to ensure that every major application and
general support system is certified and accredited in accordance with requirements set
forth by the National Institute of Standards and Technology (NIST). 4 The RRB is
continuing its work to ensure an effective certification and accreditation process.

4
  NIST requirements for certification and accreditation are presented in Special Publication 800-37, Guide
for Applying the Risk Management Framework to Federal Information Systems - A Security Life Cycle
Approach, February 2010.


                                                    3
OMB Circular A-130, Appendix III, requires that agency management authorize systems
for processing based on a formal technical evaluation of management, operational, and
technical controls. 5 This authorization should be performed at least every three years,
following an independent review of the security controls. This review of security
controls culminates in a NIST compliant certification and accreditation of the information
system.

In February 2002, the OIG first reported the need for the RRB to periodically perform
independent evaluations of information system security, which leads to an authorization
for processing or the certification and accreditation of the information system. In
FY 2007, the RRB contracted for independent evaluations and NIST compliant
documentation to support a certification and accreditation process. Contractor
evaluations occurred between FY 2007 and FY 2009.

In FY 2008, we reported a weakness in the RRB’s process for reviewing contractor
deliverables, and noted in FY 2009 that the RRB was not effective in correcting that
weakness. Due to the ineffective review process for contractor deliverables, we cited
the agency with a significant deficiency in the internal control over the certification and
accreditation process.

The RRB has started addressing this significant deficiency by conducting a BIS review
of the FY 2009 contractor deliverables for the mainframe and LAN/PC information
security review to resolve inaccurate or missing information. Specific controls will need
to be placed into operation to ensure a consistent and effective certification and
accreditation review process of documentation prepared by agency employees or
contractor personnel.


Access Controls

The RRB has taken numerous actions to strengthen controls over information system
access. They continue to address this significant deficiency.

OMB Circular A-130, Appendix III, defines least privilege as the practice of restricting a
user’s access or type of access to the minimum necessary to perform his or her job.
Other interrelated controls such as separation of duties and user authentication,
including passwords, are used to assure adequate security for all information
processed, transmitted, or stored in Federal information systems.

In FYs 2000 and 2001, contractors hired by the OIG reported that the RRB did not have
a formal password policy and noted weaknesses in password management including
the lack of password complexity, password history files, and poor password encryption
on some information systems.



5
    OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources.


                                                    4
In February 2002, the OIG reported that passwords were not set to expire for some
users and noted that an application displayed an unencrypted administrator password.
We also reported numerous other access control deficiencies including poor account
management, excessive user rights, and an inadequate user reauthorization process.
Due to the nature and extent of these deficiencies, the OIG reported that the RRB’s
access controls were not effective, and cited the agency with a significant deficiency.

Since that time, the RRB has taken numerous steps to strengthen controls over
information system access. For instance, they are developing a formal password policy
and are working to enforce that policy across all agency platforms. They have
addressed many account management weaknesses by implementing procedures to
identify and remove inactive accounts, unnecessary shared or administrative accounts,
and accounts of separated employees.

The RRB has also taken significant steps to ensure least privilege in the LAN
environment. In February 2002, we reported that the RRB was unable to identify or
produce a listing of system users. We later found that many of the LAN applications
were designed to give excessive rights (to the extent of “full control”) to every user.
Actions taken by the agency to remedy this weakness involved full application rewrites
and a migration to a newer operating system that allowed the principle of least privilege
to be applied. Additionally, the agency implemented a three-server environment that
segregated LAN systems for development, test, and production, which alleviated
segregation of duties weaknesses for systems development staff. These improvements
were a major undertaking for the agency and required several years to implement. In
FY 2009, the RRB was able to conduct its first reauthorization review of LAN user
access.


Privacy

The RRB has implemented several OMB directives on privacy. They continue to
address OMB’s privacy-related directives and audit recommendations made by the OIG.

The Privacy Act requires Federal agencies to protect the privacy interests of individuals
by placing restrictions on the government’s collection, use, and dissemination of
personal information. The E-Government Act of 2002 set forth additional privacy
protections when agencies collect, maintain, or disseminate personal information using
information technology. OMB has issued a number of directives to agencies regarding
their responsibilities for safeguarding and protecting this information, and for reporting
certain privacy-related actions and reviews performed by the agency. 6
6
  OMB Circular A-130, Appendix I, Federal Agency Responsibilities for Maintaining Records About
Individuals;
OMB M-03-22, OMB Guidance for Implementing the Privacy Provisions of the E-Government Act of 2002;
OMB M-06-15, Safeguarding Personally Identifiable Information;
OMB M-06-16, Protection of Sensitive Agency Information; and
OMB M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable
Information.


                                                5
In response to OMB directives and OIG audit recommendations, the RRB:

   •   formed two committees, the information security and privacy committee which
       aids in privacy policy making, and the agency core response group which is
       responsible for safeguarding against and responding to breaches of personally
       identifiable information;
   •   implemented policies and procedures for general privacy information
       management;
   •   implemented policies and procedures for performing privacy impact
       assessments when personally identifiable information is collected, maintained, or
       disseminated using information technology;
   •   conducts privacy impact assessments in accordance with the above procedures;
   •   issued agency owned laptops with NIST approved encryption to RRB employees
       who work with personally identifiable information outside of RRB facilities;
   •   conducts training on privacy-related responsibilities to the above employees;
   •   issued procedures for the identification of contractors who are exposed to
       personally identifiable information;
   •   conducts training on privacy-related responsibilities to the above contractors;
   •   revised numerous forms, letters, and other correspondence to eliminate the use
       of social security numbers;
   •   revised several online information systems to eliminate the display of social
       security numbers; and
   •   conducts the necessary reviews of privacy information and records as required
       by OMB.

The RRB has implemented a privacy program that addresses the Privacy Act
requirements, security breaches involving personally identifiable information, and
ongoing assessments for the impact of using privacy-related information. They continue
to address other outstanding directives and OIG audit recommendations.


Risk Assessment

The RRB has taken action to ensure NIST compliant risk assessments are developed
for every major application and general support system, thus removing a significant
deficiency. They continue to address audit recommendations for ensuring the risk
assessments are complete and accurate.

FISMA requires agencies to develop, document, and implement periodic assessments
of the risk and magnitude of the harm that could result from the unauthorized access,
use, disclosure, disruption, modification, or destruction of information and information
systems that support the operations and assets of the agency.

Early risk assessments prepared by the RRB were designed to provide reasonable
assurance that the agency accomplished its mission and protected its assets. These


                                            6
risk assessments were not designed to consider information security control objectives
and techniques. During FY 2003 and FY 2005, the OIG had recommended that the
agency implement a formal certification and accreditation process which would include
security-based risk assessments, and the completion of formal risk assessments in
accordance with NIST guidance, respectively. In September 2005, we reported that the
RRB had made little progress in implementing an effective risk assessment process and
cited the agency with a significant deficiency due to this delay.

Formal NIST compliant risk assessments were prepared in response to the RRB’s
FY 2007 contract for the certification and accreditation of their major applications and
general support systems. As a result, we removed this significant deficiency. However,
our review of the risk assessments prepared by the RRB’s contractor showed that the
assessments were not complete or accurate with regard to the RRB’s operating
environment. Therefore, existing OIG audit recommendations pertaining to complete
and accurate risk assessments remain open. The RRB continues to address these
open audit recommendations.


Policies and Procedures

The RRB continues to take action to implement information security and privacy policies
and procedures.

FISMA requires agencies to develop, document, and implement risk-based policies and
procedures that ensure that information security is addressed throughout the life cycle
of each information system and that ensure compliance with other FISMA requirements,
including minimally acceptable system configuration requirements and the security
control areas promulgated by NIST.

The RRB has implemented various policies and procedures to strengthen their
information security and privacy programs. These policies and procedures encompass
multiple areas, including systems development, systems configurations, incident
handling and response, access control, continuity of operations, and privacy
management. The RRB continues to address other information security and privacy
areas that require new or updated policies and procedures.


System Security Plans

The RRB has taken action to ensure NIST compliant system security plans are
developed for every major application and general support system. They continue to
address audit recommendations for ensuring that the system security plans are
complete and accurate.

FISMA requires agencies to develop, document, and implement subordinate plans for
providing adequate information security for networks, facilities, and systems or groups



                                            7
of information systems. These subordinate plans are otherwise referred to as system
security plans.

The RRB has historically maintained system security plans for its major applications and
general support systems. Occasionally, the OIG has found that the plans require
revisions to more accurately reflect the RRB’s operating environment.

System security plans were prepared when the RRB contracted for the certification and
accreditation of its major applications and general support systems in FY 2007.
However, our review of the system security plans prepared by the RRB’s contractor
showed that the plans were not complete and were inaccurate with regard to the RRB’s
operating environment. Therefore, existing OIG audit recommendations for complete
and accurate system security plans remain open. The RRB continues to address these
open audit recommendations.


Training

The RRB has implemented a security awareness training program that meets the
requirements of FISMA for employees and contractors. They continue to address open
audit recommendations for the specific training needs of some individuals.

FISMA requires agencies to develop, document, and implement a security awareness
training program to inform employees, contractors, and other users of the information
systems about the risks associated with their activities and their responsibilities in
complying with agency policies and procedures designed to reduce those risks.

In February 2002, the OIG cited the agency with a significant deficiency in security
training for key personnel with decision-making responsibilities. In FY 2006, we
reported that the RRB had implemented a role-based security training curriculum and
had provided a substantial portion of the current year’s training plan to employees with
significant security responsibilities. The agency also continued its existing program for
providing general security awareness training to full-time employees and contractors.
As a result, we removed the significant deficiency in this area.

Since that time, the RRB has consistently ensured annual training to its employees and
contractors; however, improvements can be made for specific training needs of certain
individuals. The RRB continues to address these training needs.


Testing and Evaluation

The RRB has taken action to ensure tests and evaluations of management, operational,
and technical controls are performed for every major application and general support
system, thus removing a significant deficiency. They continue to address audit
recommendations for performing tests and evaluations for agency information and



                                            8
information systems located outside of RRB headquarters, including RRB field offices
and contractor operations.

FISMA requires agencies to develop, document, and implement annual testing and
evaluation of the effectiveness of the information security policies, procedures, and
practices of the agency’s management, operational, and technical controls over
information systems.

In February 2002, the OIG reported that the RRB was not performing periodic
evaluations of system security as required by OMB Circular A-130, Appendix III. During
FY 2003 and FY 2004, we recommended that the agency implement a formal
certification and accreditation process, which would include tests and evaluations of
system security controls. In September 2005, the OIG reported that the RRB had made
little progress in implementing a consistent FISMA compliant testing and evaluation
process, and cited the agency with a significant deficiency due to this delay.

Formal tests and evaluations of the management, operational, and technical controls of
agency major applications and general support systems were prepared in response to
the RRB’s FY 2007 contract for the certification and accreditation. As a result, we
removed this significant deficiency. However, our review of the test and evaluation
plans and results showed that the testing did not extend to RRB information systems
located outside of RRB headquarters, including RRB field offices and contractor
operations. Therefore, additional audit recommendations have been made. The RRB
continues to address these open audit recommendations.


Remedial Action Process

The RRB has begun the process of preparing an agency-wide Plan of Actions and
Milestones (POAM) to address information security and privacy weaknesses. The RRB
continues work to ensure it is effective in identifying all weaknesses and in prioritizing
their remediation efforts.

FISMA requires agencies to maintain a process for planning, implementing, evaluating,
and documenting remedial action to address any deficiencies in the information security
policies, procedures, and practices of the agency. Additionally, OMB requires each
agency to develop a formal POAM to identify vulnerabilities in information security and
privacy, and to track the progress of corrective action.

Between FY 2003 and FY 2007, the OIG reported that the RRB’s POAM was
incomplete and insufficiently detailed to be an effective tool for identifying information
security and privacy vulnerabilities, and for prioritizing agency plans and efforts to
correct the weaknesses found.

Formal POAMs were prepared for RRB major application and general support systems
in response to the RRB’s FY 2007 contract for certification and accreditation. These



                                              9
POAMs, coupled with OIG audit follow-up records, represent the RRB’s agency-wide
POAM as required by FISMA. However, our review of the POAMs prepared for the
major application and general support systems showed that they did not reflect the full
results of the contractor’s testing, nor were they prioritized by the RRB to ensure timely
and effective remediation.

The RRB has begun the process of consolidating the POAMs and allowing the means
to prioritize the information security and privacy weaknesses. Actions taken to date
have not been evaluated by the OIG to determine their overall effectiveness for
managing the agency’s remediation efforts. The RRB continues its work to ensure an
effective remedial action process.


Incident Handling and Reporting

The RRB has taken numerous actions to strengthen controls over incident handling and
reporting. They continue to address open audit recommendations in this area.

FISMA requires agencies to develop, document, and implement procedures for
detecting, reporting, and responding to security incidents. This includes mitigating risks
associated with such incidents before substantial damage is done, notifying and
consulting with the Federal Information Security Incident Center (US-CERT), and with
law enforcement agencies (OIG-Office of Investigations (OI)), as appropriate.

Audit reports dating back to FY 2000 have disclosed the need for improvement in the
RRB’s incident handling and reporting processes. Since that time, the RRB has made
significant progress in establishing a computer emergency response team (RRB-CERT)
that is capable of identifying and handling security incidents in a timely manner.
Additionally, the RRB has implemented procedures to ensure timely and accurate
reporting of incidents, both internally to agency management and externally to
US-CERT and OIG-OI.

The RRB now has a comprehensive program that utilizes an array of prevention and
detection tools to protect RRB information and information systems. RRB-CERT works
closely with the agency core response group when data breaches occur. The RRB
continues to address open audit recommendations and to ensure the effectiveness of
this incident response program.


Continuity of Operations

The RRB has implemented a continuity of operations plan that meets the requirements
of FISMA. They continue to work on some outstanding audit recommendations.




                                            10
FISMA requires agencies to implement plans and procedures to ensure the continuity of
operations for information systems that support the operations and assets of the
agency.

Past audits dating back to FY 2001 have disclosed the need to improve the RRB’s
continuity of operations by updating the disaster recovery plans to reflect the current
operating environment and critical business systems. We also recommended additional
testing to ensure that critical business systems are scheduled for off-site testing on a
rotational basis, which would provide assurance that all critical systems can be
recovered and become operational in a timely manner. Additionally, we recommended
that the RRB schedule their off-site tests to ensure sensitive data is cleared from the
facility’s data packs when testing is complete.

The RRB performs off-site disaster recovery testing twice a year, and has tested all
major applications and general support systems over the past few years. They continue
to address open audit recommendations for a rotational schedule and for ensuring the
data packs are cleared.


Inventory of Systems

The RRB has implemented an inventory of major applications in accordance with
FISMA. They continue to address outstanding audit recommendations for the overall
improvement of their information systems inventory.

FISMA requires each agency to develop, maintain, and annually update their inventory
of major information systems. This inventory is to include an identification of the
interfaces between each system and all other systems or networks, including those not
operated by or under the control of the agency.

In FY 2002, the OIG reported that the RRB was unable to provide the auditors with a
current inventory of the agency’s LAN hardware and software. At that time, no audit
recommendation was made because the RRB was in the process of implementing a
new automated system to support fixed asset management. In FY 2005, we reported
that the RRB was maintaining several separate inventories of systems and
recommended that they develop an official inventory of the component applications that
comprise the major application systems. We also recommended that they identify the
servers where individual LAN component systems operated, and the security
administrators of decentralized component systems.

The RRB has addressed all three of the above audit recommendations and developed a
method for maintaining the system inventory in accordance with FISMA requirements.
They continue to work to improve the procedures and practices for maintaining their
information systems inventory.




                                          11
                                                                                Appendix I

              Important Outstanding Audit Recommendations

Certification and Accreditation

   •   Implement controls to ensure an effective certification and accreditation review
       process. (OIG Report No. 10-01, #1)

Access Controls

   •   Develop controls to ensure that least privilege is applied to the LAN general
       support system on an ongoing basis. (OIG Report No. 02-04, #20)
   •   Develop controls to ensure that workstation connectivity is controlled by a
       management policy that minimizes risk. Restrict file and folder access and
       develop controls to maintain the principle of least privilege.
       (OIG Report No. 02-04 #21; OIG Report No. 08-03 #1)
   •   Reduce administrator access privileges, if appropriate. (OIG Report No. 08-03, #2)
   •   Prohibit the FFS system administrator from entering, approving, or modifying
       transactions. (OIG Report No. 09-02, #7)
   •   Enforce separation of duties in FFS to prevent employees from approving
       transactions they have entered. (OIG Report No. 09-02, #8)
   •   Implement regular reviews of Medicare options cases for accuracy.
       (OIG Report No. 09-05, #2)
   •   Restrict the Field Service access profile to only those positions that require all
       system privileges contained in the profile. (OIG Report No. 09-05, #12)
   •   Review inactive contractor access accounts, establish contractor system access with
       an expiration date, and reauthorize annually. (OIG Report No. 09-05, #15 and
       OIG Report No. 09-06, #4)

Privacy

   •   Develop test database without personally identifiable information (PII) for use in
       system development. (DSD Web, #18)
   •   Update current agreements and plan for encryption of data transmitted for state
       wage match. (OIG Report No. 07-04, #1and #2)
   •   Issue agency laptops with encryption software to employees when working at
       home. (OIG Report No. 07-06, #5)
   •   Install mainframe tape encryption for tapes transported off-site.
       (OIG Report No. 07-06, #7)
   •   Develop comprehensive program to ensure physical security of PII.
       (OIG Report No. 07-09, #1)
   •   Ensure all tapes removed from the computer center are properly inventoried.
       (OIG Report No. 07-09, #9)
   •   Establish policy and procedures for: compliance with disposal requirements,
       equipment sanitation procedures prior to disposal, proper sanitization of
       damaged hard drives, hard drive physical destruction, and reuse of hard drives.
       (OIG Report No. 07-09, #3, #14, #15, #17, and #18)

                                            12
                                                                                Appendix I


Policies and Procedures

   •   Develop procedures to identify and refer for correction date of birth
       discrepancies. (OIG Report No. 07-02, #3)
   •   Develop an electronic history of Medicare premium refunds, of tax withholding
       transactions, and of FAME transactions. (OIG Report No. 07-02, #4;
       OIG Report No. 07-07, #4; and OIG Report No. 09-03, #7)
   •   Develop procedures and controls for emergency programming changes.
       (OIG Report No. 09-05, #16 and #17)
   •   Ensure documented password policy conform to Federal Desktop Core
       Configuration (FDCC) security configuration. (OIG Report No. 09-05, #18)
   •   Develop plans to implement Windows 2003 configuration policy and remove
       Windows 2000 servers; implement FDCC settings and document FDCC
       deviations. (OIG Report No. 10-01, #2, #3, and #4)

Testing and Evaluation

   •   Conduct penetration testing annually. (DSD LAN, #2)
   •   Extend test plans to include locations outside of RRB headquarters.
       (OIG Report No. 07-08, #2)
   •   Develop a comprehensive plan for testing agency contractor systems. Perform
       reviews to determine which RRB contractors are independent information
       systems. (OIG Report No. 08-05, #3 and OIG Report No. 10-01, #6)

Remedial Action Process

   •   Ensure that all security weaknesses are included in the agency wide POAM and
       that the plan demonstrates the prioritization of agency remediation efforts.
       (OIG Report No. 05-11, #3)
   •   Update all privacy weaknesses to the agency wide POAM.
       (OIG Report No. 07-06, #15)

Incident Handling and Reporting

   •   Centrally manage all servers and workstations with virus scanning software
       signatures. (DSD LAN, #3)

Continuity of Operations

   •   Ensure data packs used in off-site testing are cleared of PII after testing.
       (OIG Report No. 07-08, #5)
   •   Schedule all general support systems and major applications to participate on a
       rotational basis in the off-site disaster recovery tests. (OIG Report No. 07-08, #6)




                                            13
